BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

October 5, 2020
Scott S. Harris, Clerk
Supreme Court for the United States
1 First Street, N.E.
Washington, D.C. 20543

RE:

Pablo Javier Aleman v. Maryland
Docket No. 20-415

Dear Mr. Harris:
A Petition for Writ of Certiorari filed on September 25, 2020, has been received
by this office in the above-referenced case. Please be advised that, unless the Court
orders otherwise, Counsel for Respondent does not intend to respond to the petition.
Attached is the waiver and appearance form to be filed on behalf of the
Respondent.

Respectfully submitted,,
/S/
Carrie J. Williams
Assistant Attorney General
Criminal Appeals Division
CC:

Piedad Gomez, Brian Zavin
Office of the Public Defender, Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, MD 21202

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

